» • t*

21-5408
Nof

IN THE

SUPREME COURT OF THE UNITED STATESI

Bruce A. Rutherford - Petitioner

V.

FILED
AUG 0 6 2021
gnPRFMEFCTOURTLURSK_

United States district court Eastern district of Texas - Respondent(s)

ON PETITION FOR WRIT OF CERTIORARI TO
United States district court
Eastern district of Texas

PETITION FOR WRIT OF CERTIOARI
Bruce A. Rutherford - 27006-078
FCI Texarkana
P.O. Box 7000
Texarkana, TX 75505

QUESTIONS PRESENTED

Court states that, Movant claimes counsel failed to inform him of plea
offers and allowed them to expire was not in §2255. (see Appendix A)

This statement clearly contradicts the court record, (see Appendix B).

The court knowingly and willfully created a "Structural Error" to avoid a :; I:.-. „
"Plain Error", Movant has on his on his original §2255.

If the Supreme Court does not use its judicial authority to correct the lower
courts, when they willfully ruled in contrast to there own court record, how
can the court maintain the confidence of
fairness and integrity of the courts?

the the American people in the

LIST OF PARTIES
The caption above contains the names of all parties

TABLE OF CONTENTS

OPTIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

12

CONCLUSION

13

INDEX TO APPENDICES

Appendix A. Order of Dismissal by district court.
Appendix

B.

Memorandum of Points Ground Five of original §2255 filed on

Appendix C.

magistrate's report acknowledgment of coerced guilty plea and

05/10/19.

failure to rule on it.
Appendix D.

Memorandum of Points ground 16, counsel's failure to withdraw

guilty plea, filed 01/10/19.
Appendix E. Transcripts of sentencing hearing increasing the number of images
from 300 to 600 to add enhancement for 600 images.
Appendix F. Appellate court ruling.
Appendix G. Coerced change of plea.

TABLE OF AUTHORITIES CITED
CASES

Page No.

Clisby v. Jones, 960, F.2d 925 (11th. Cir. 1992)

6

Dhillern v. Estelle, 720 F.2d 839, 852 (5th. Cir. 1983)

3

Hill v. Lockhart, 474 U.S. 1985

4

Laffer v. Cooper, 566 U.S. 156 (2012)

2

Missouri v. Frye, 566 U.S. 134, 132, S.Ct. 1399 (2012)

2

Pene-Rodrigez v. Colorado, 137 S.Ct. 855 (2017)

4

Rhode v United States, 583, F.3d 1289 (11th. Cir. 2009)

6

United States v. Carr, 740 F.2d 339, 543-44 (5th. Cir. 1984) .... 4
United States v. Davis, 139 S.Ct. 2319, 204,L Ed.2d 757 (2019) .. 5
United States v. Halverson, 987 F.3d 645 (5th. Cir. 2018)

2

United States v. Rummy, 698 F.2d 764, 766 (5th. Cir. 1983)

3

United States v. Wainwright, 525 F.2d 1269 (5th. Cir. 1976)

5

Wells v. United States, 318 U.S. 257 (1943)

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.

OPINIONS BELOW

[] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix F.
to the petition and is unpublished.

The opinion of the United States district court appears at Appendix A. to
the petition and is unpublished.

1

JURISDICTION

[] For cases from federal court:
The date on which the United States Court of Appeals decided my case was
July 9, 2021.
[] No petition for rehearing was filed.

The jurisdiction of this court is invoked under 28 U.S.C. §1254(1).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Constitution, Article 1, Sec 9, cl. 2:
The privilege of the writ of habeas corpus shall not be suspended, unless when
in cases of Rebellion or invasion of public safety may require it.
Constitution, Article VI, Clause 2:
The Constitution and the Laws of the United States which shall be made in
pursuance thereof; and all treaties made, or which shall be made, under the
Authority of the United States, shall be the Supreme Law of the Land, and the
judges in every State shall be bound thereby, any Thing in the Constitution or
Laws of any State to the contrary notwithstanding.

Constitution - Article VI, Clause 3:
The Senators and Representatives before mentioned, and the members of the
several State Legislatures and all executive and judicial Officers, both of
the United States and of the several States,

shall be bound by Oath or

Affirmation, to support this Constitution, but no religious test shall ever be
required as a Qualification to any Office or public Trust under the United
States.
Constitution - Amendment 1:
Congress

shall

make

no

Law...the

right

of

the

people

to

petition

the

Government for redress of Grievance.

Constitution - Amendment V,
No person shall...

be deprived of life, liberty, or property, without due

process of law...

3

'

\

■

Constitution - Amendment VI:
...to have the ('Competent') assistance of counsel for his defense.

Constitution - XIV, Section 1:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof,

are citizens of the United States and of the State

wherein they reside.

No State shall make or enforce any law which shall

abridge the privileges or immunities of citizens of the United States, nor
shall any State deprive any person of life, liberty, or property, without due
process of law, - nor deny to any person within its jurisdiction the equal
protection of: the laws.

4

/

A finding of frivolous and without merit and with no explanation or definition
are not a ruling but, the lack of a ruling.
I am not challenging the courts power to do this, but I have to challenge
their constitutional right to do this.
The

words

frivolous and without merit are used repeatedly by the courts

without ever being held to what is frivolous or why something is without merit
as shown in the magistrates Report to my §2255.
The

objections

Recommendations

were

that
based

I

brought up in the magistrate's Report and

upon

the

deprivation

of

my

Constitutionally

protected rights under the First, Fifth, Sixth, and Fourteenth Amendments and
Article 1, § 9, Cl. 2 of the Constitution of the United States of America, and
my counsel's complete lack of information being conveyed to me. I am unable to
find anything in the Constitution that states

these

protected rights are

frivolous.
The district

court states that "Furthermore,

Movant claims for the

first time that counsel failed to convey plea offers to him, which entitles
him to relief. However, issues raised for the first time in objections are not
properly before the court and need not be addressed". (Appendix A)
The district ourt's statement that I failed to bring up that counsel failed
to inform me of any plea offers for the first time is clearly in error.
It is a matter of the court's record that this claim was brought up in my
§2255 that I filed on May 5, 2019, in the Memorandum of points in support of
Petitioner's

§2255,

Page3,

Ground

Five(5)

it Clearly

statesthat "Defense

counsel Edgett was ineffective for failing to inform Petitioner of plea offers
from the government was Ineffective Assistance of Counsel".

(Appendix B).

As this is part of the court's record, for the judge to not have known this,
is problematic, because the judge apparently denied my §2255 without knowing
what is in it.
6

This is an extremely important issue and effects not only my life, but the
life of my whole family and deserves serious, just and fair consideration.
This is a clear violation of my Article 1, §9, cl 2, right to habeas corpus,
First Amendment right to redress of grievances, Fifth Amendment Due Process,
Fourteenth Amendment Section 1 and the fundamental fairness of the entire
judicial process.
The court cannot make a person guilty just because they wish them to be.
A judge is bound by their Oath of Office to the Constitution as the
"Supreme

Law of

the

rights, Article VI

• 9

the United States,

Land"

and to protect the defendant's constitutional

§3 "...and all executive and judicial Officers, both of
and of the several States,

shall be bound by Oath or

Affirmation, to support this Constitution..."
"Counsel is required to inform client of any plea offers and to provide
competent advice about the consequences of accepting or rejecting a plea
offer." (Laffer v. Cooper, 566 U.S. 156 (2012)).
For defense counsel to not inform me of said plea offers and allow offers to
expire,"Defense counsel is allowing plea offers to expire without advising
accused of offer is to constitute denial of effective assistance of counsel
required under the Sixth Amendment.

(Missouri v. Frye, 566 U.S.

134,

132,

S.Ct. 1399 (2012)).
Not informing client of plea agreements is a huge "Plain Error".
[Plain Error is established when there is (1) a legal error that has not been
abandoned.

(2)

that is a clear or obvious rather than subject to reasonable

dispute (3) which effected the appellant's substantial rights ie. the error
effected the outcome of
fairness,

the proceedings,

and

(4)

seriously

integrity, or public reputation of judicial

States v. Halverson, 897 F .3d 645 (5th Cir. 2018)).

7

effected

proceedings]

the

(United

My substantial rights and fundamental fairness of the proceedings are
clearly and unarguably denied by the counsel's lack of informing me of said
plea offers.
The above actions alone constitutes "Plain Error" and a extreme loss of a
fundamental fairness in the process.
This court will grant federal habeas corpus relief only when the error
is so extreme that it constitutes a denial of fundamental fairness under the
Due Process clause" (Dhillern v. Estelle, 720 F.2d 839, 852 (5th Cir. 1983)).
Another major issue with counsel was on September

5,

2017.

Being the

morning that jury selection was scheduled to begin.
Counsel came to me at the courthouse holding cell and told me that if I went
through with the trial, I was going to lose and would be sentenced to 20 years
inprison,

however,

if I changed my plea to guilty,!

would

get a 5 year

sentence, and I had about 3 minutes to think about it as he had to get back
into the court room.
Me being utterly and completely uninformed, and even though I was not guilty,
I felt like I had no choice but to do as my counsel told me to do.
I had to plead guilty and take the 5 years in prison rather than go through
with the trial and get 20 years. Had I known that he was not telling me the
truth, I would have gone to trial.
I grudgingly agreedtochange

my

plea

to

guilty

and respond to the courts

questions as my counsel instructed.
If I did not answer the judge's questions as instructed by my counsel, I would
get a 20 year prison sentence.
My change of plea to guilty was not voluntary, but coerced.
This claim was noted in the magistrate's Report and Recommendation but not
ruled on. (Appendix C).
8

The coerced guilty plea was not even mentioned in the district judge's ruling.
"Granting relief based on erroneous advice of counsel".

(United States v.

Rummy, 697 F.2d 764, 766 (5th Cir. 1893))
This is but another violation of my Sixth Amendment rights and Due Process.
The court must consider the fairness of the proceeding when counsel
provides no information that is relevant to defense of his case and his only
information is coercive in order to obtain an involuntary guilty plea showing
prejudice and incompetence on counsel's part, "habeas petition may attack the
voluntary and intelligent character of the guilty plea

based on pre-plea

ineffective assistance of counsel by showing the advice he received from
counsel was not within the range of competence demanded of Attorneys in a
criminal

case"

applies

not only to "ineffective assistance rendered when

providing incompetent advice concerning the guilty plea itself" but also to
pre-plea ineffective assistance of counsel..." Counsel not only provided me
false

information,

he

never

informed me of

the consequences of pleading

guilty, thereby preventing me from making an informed choice.
This is another major violation of the Sixth Amendment and Due Process.
Throughout the whole process my counsel withheld vital and important
information and did not perform any of the tasks I asked of him required by
/
counsel to provide assistance of counsel guaranteed under the Sixth Amendment.
What has become clear is the system is showing prejudice to the accused when
it comes to charges of a sex offense, "a familiar and reoccurring evil that if
left

unaddressed,

would

risk

systematic

injury

to

the

administration of

justice. (Pene-Rodrigez v. Colorado, 137 S.Ct. 855 (2017)).
Though a law be fair on its face and impartial in appearance, yet if it is
administered by public authority with an evil eye and unequal hand, so as to
make

illegal

discriminations

between

persons

in

similar

circumstances,

material to their rights, the denial of equal justice is still within the
prohibition of the Constitution.
9

I am not even sure how this can possibly be considered to be a sex offense,
there is no sex and no one to offend, (no victim), its just simply looking at
a picture. Worst case it could be considered voyeurism. Hardly a crime that
warrants 12 1/2 years in prison with no criminal history.
There has to be a whole lot of money being made by someone in trafficking in
people in prisons.
Another Six Amendment violation was when counsel refused to withdraw my
guilty plea after I realized what he had done. I made three separate requests
to do so.(Appendix D).
(Hill v.

Lockhart,

474 U.S.

1985);

(Wells v. United States, 318 U.S. 257

(1943)).
Lets look at the Carr test to determine if this was a just cause ["fair and
just reason"] for the court to consider a withdraw of a plea of guilty:

(1)

the

the

defendant

asserted

his

innocents;

government to suffer prejudice;

(2)

withdrawal

would

cause

(3) the defendant is delayed in filing the

motion; (4) withdrawal would substantially inconvenience the court; (5) close
assistance

of

counsel

was

variable;

(6)

the

original

was

knowing

and

voluntary; (7) withdrawal would waste the judicial resources. (United States v
Carr, 740 F.2d 339, 543-44 (5th Cir. 1984)).
(1) Movant asserted his innocents by pleading "Not Guilty" in March 21, 2017
and not changing it till he did under coercion on September 5, 2017 from
counsel claiming I would lose and receive 20 years in prison. (Appendix G).
Also my counsel was never close in as far as providing needed information to
make an educated choice. A violation of Due Process and the Sixth Amendment.
Another blatant violation of the Sixth Amendment is when counsel failed
me by not objecting to the enhancement or points for over 600 images.

10

This is essentially a Fifth Amendment violation of Due Process by adding years
of prison time with no Due Process or even a universal sense of justice
"fundamental

fairness"

(United

States

v.

Russell,

411

U.S.

423,

432

(1973)(quoting Kinsella v. United States, exrel. Singleton, 361 U.S. 234, 246
(1960), as well as is Sixth Amendment violation.
The government claims 4 partial video clips as evidence,

then the

government states each video equals 75 images, see change of plea hearing
transcripts page 15, lines 21-23. (Appendix E).
This equals 300 images to ordinary people, not 600 images to give extra years
in prison,

"Congress has to write statutes that give ordinary

people fair

warning about what the law demands of them" (United States v Davis, 139 S.Ct.
2319, 204, L Ed.2d 757 (2019)).
Counsel's

ineffectiveness was painfully present through the whole process

caused by either prejudice or by incompetence to the degree as to remove the
required fundamental fairness of the process and to cause a "Plain Error" by
not informing me of plea offers and coercing me into changing my plea to
guilty.
When defense counsel's representation is so blatantly incompetent as to
render entire proceedings fundamentally unfair, Due Process clause itself is
violated. (United States v. Wainwright, 525 F .2d 1269 (5th Cir. 1976)).

11

REASONS FOR GRANTING THE PETITION

In the courts dismissal of my 28

U.S.C. §2255 motion, the district judge

stated that, I raised for the first time that counsel failed to convey plea
offers to me was raised for the first time in the objections, are not properly
before the court, and need not be addressed (Appendix A).
The. courts ruling is in direct conflict with the court records (Appendix B).
This ruling creates a "Structural Error" by trying to avoid ruling on a clear
"Plain Error" in my §2255 that the court was trying to avoid.
This conflict in the court records must be corrected. To do otherwise would
diminish the confidence of the American people in the fairness and integrity
of the courts.

12

CONCLUSION
The petition for a writ of certiorari should be granted.

Submitted on

By:

2021

»e

Bruce A. Rutherford / 27006-078
FCI Texarkana
P.0. Box 7000
Texarkana, TX 75505

13

